       DOD CONTRACTOR DEBT COLLECTION PROCESS

Report No. D-2001-114                          May 7, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CAGE                  Contractor and Government Entity
DDMS                  Defense Debt Management System
DFARS                 Defense Federal Acquisition Regulation Supplement
DFAS                  Defense Finance and Accounting Service
DMO                   Debt Management Office
MOCAS                 Mechanization of Contract Administration Services
                        Office of the Inspector General, DoD
Report No. D2001-114                                                         May 7, 2001
   (Project No. D2000FI-0151)

                    DoD Contractor Debt Collection Process

                                Executive Summary

Introduction. This is the first in a series of reports related to the DoD debt collection
process. Contractor debt cases within DoD occur for a variety of reasons. Some of
these reasons include duplicate payments, damages or excess costs related to defaults in
performance, and unliquidated progress payments. As of May 31, 2000, DoD had
3,061 contractor debt cases totaling $3.6 billion. Because deferment agreements were
pending or existed for 45 cases totaling $2.8 billion, 3,016 cases for $0.8 billion were
to be actively researched and collected or resolved.

Objectives. The overall audit objective was to review the DoD contractor debt
collection process and the controls associated with the List of Contractors Indebted to
the United States. We also evaluated the effectiveness of the management control
program as it related to the audit objective.

Results. The Defense Finance and Accounting Service did an inadequate job on debt
collection from 37 large DoD contractors in the debt collection cases examined. DoD
had 204 open debts valued at $39.4 million with 37 large DoD contractors, some of
which remained open from the mid-1980s. We determined that 29 cases for
$8.6 million were apparently invalid and there were 9 cases for $0.4 million where the
collection period had lapsed. Also identified one debt case for $17.8 million was
collected by the Department of Treasury but was not subsequently forwarded to the
DoD. The net result was that DoD had not collected $12.6 million in contractor debt.
The amounts due ranged from $25 to $6.4 million. Implementing the recommendations
would allow DoD to collect $12.6 million. We identified 148 cases to the Defense
Finance and Accounting Service during the audit and DoD took some actions to resolve
those debts. If the Defense Finance and Accounting Service fully implements our
recommendations, additional monetary benefits will be achieved (finding A).

The List of Contractors Indebted to the United States, prepared by the Defense Finance
and Accounting Service, did not include sufficient data to ensure that disbursing
officers could identify payments to administratively offset contractor debt, did not
include all eligible contractor debts, included apparently invalid debts, and did not
include sufficient data to ensure that debts were removed in a timely manner. As a
result, the List of Contractors Indebted to the United States was not an effective tool to
collect contractor debts, and potential administrative offsets were not made against
payments to collect contractor debts (finding B).
See Appendix A for details on the management control program as it relates to DoD
contractor debt collection process.

Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service, establish and monitor management control procedures to
ensure the timely identification, verification, and collection of valid contractor debt.
We also recommend that the Defense Finance and Accounting Service provide the Debt
Management Policy and Review Office with access to all entitlement systems and
electronically interface the Defense Procurement and Payment System with the Defense
Debt Management System and the List of Contractors Indebted to the United States.

Management Comments. The Director, Commercial Pay Services, Defense Finance
and Accounting Service Columbus Center, provided comments on April 11, 2001. The
Director concurred with most of our recommendations. Although the Defense Finance
and Accounting Service nonconcurred with 6 of our recommendations, proposed
actions on 4 of the recommendations met the intent of our recommendations. The
Defense Finance and Accounting Service stated that costs to perform contract reviews
on open contracts at least every four years is cost prohibitive. The Defense Finance
and Accounting Service further stated that new system implementations negate the need
to interface the Defense Procurement and Payment System with debt management
systems and the List of Contractors Indebted to the United States. A discussion of the
management comments is in the Finding sections of the report and the complete text of
the comments is in the Management Comments section.

Audit Response. We fully recognize that there are associated costs with the
administration of an effective debt management program; however, identifying
contractor debts in a timely manner is critical to the debt collection process. If debts
are not identified in a timely manner, DoD can lose it rights to collect the debt because
the 6-year statute of limitations or the 10-year period for administrative offset could
lapse. In addition, contract payment systems should be interfaced with the List of
Contractors Indebted to the United States to ensure existing debts are offset against
potential payments. As we have demonstrated in this audit, a number of cases have
lapsed. Our recommendations were targeted to prevent recurrence of these problems.
Specifically performance of contract reviews every 4 years seems appropriate. We
request that the Director, Defense Finance and Accounting Service reconsider their
comments and provide additional comments on the final report by July 6, 2001.




                                            ii
Table of Contents

Executive Summary                                                i

Introduction
     Background                                                  1
     Objectives                                                  3

Findings
     A. The DoD Contractor Debt Collection Processes             4
     B. The List of Contractors Indebted to the United States   18

Appendixes
     A. Audit Process
          Scope                                                 22
          Methodology                                           23
          Management Control Program Review                     23
     B. Outstanding Contractor Debts                            25
     C. Report Distribution                                     30

Management Comments
     Defense Finance and Accounting Service                     32
Background
Contractor debt cases within DoD occur for a variety of reasons. The reasons include
duplicate payments, damages or excess costs related to defaults in performance,
overpayments related to errors in quantity or billing or deficiencies in quality, and
unliquidated progress payments. As of May 31, 2000, DoD had 3,061 contractor debt
cases for $3.6 billion. Because deferment agreements were pending or had been
approved for 45 cases totaling $2.8 billion, 3,016 cases valued at $0.8 billion were
active. Several public laws and DoD and Treasury regulations outline procedures to be
followed to collect outstanding contractor debts.

Public Law. Public Law 89-508, “Federal Claims Collection Act of 1966,” (codified
as 31 U.S.C. 3711(a)(1)) requires DoD to attempt collection of all claims of the United
States for money or property arising out of the activities of, or referred to, DoD.
Public Law 97-365, “Debt Collection Act of 1982,” (codified as 31 U.S.C. 3716)
allows DoD to collect a claim by means of administrative offset within 10 years.
Public Law 97-365 (codified as 31 U.S.C. 3701(a)(1)) defines administrative offset as
withholding money payable by the United States to or held by the United States on
behalf of a person to satisfy a debt owed by the United States by that person. Further,
Public Law 97-365 (codified as 31 U.S.C. 3717) allows DoD to charge a minimum
annual rate of interest on outstanding debts and assess charges to cover the costs of
processing and handling delinquent claims.

Public Law 104-134, “Debt Collection Improvement Act of 1996,” (codified as
31 U.S.C. 3711(g)(1)(A)) requires DoD to transfer any debts that have been delinquent
for at least 180 days to the Treasury Department. The Treasury Department is then
responsible to take action to collect or terminate collection actions on the debt or claim.
This act also allows DoD to publish or otherwise publicly disseminate information
regarding the identity of the debtor.

Six-year Statute of Limitation. Except as otherwise provided by statute,
section 2415, title 28, United States Code, requires that action for money damages
brought by the United States founded on any contract shall be barred unless the
complaint is filed within 6 years after the right of action accrues or within 1 year after
final decisions have been rendered in applicable administrative proceedings required by
contract or by law, whichever is later. Some exceptions apply to include that the facts
material to the right of action are not known and reasonably could not be known by an
official of the United States charged with the responsibility to act in the circumstance.

DoD Regulations. DoD Regulation 7000.14-R, the “DoD Financial Management
Regulation,” volume 10, “Contract Payment Policy and Procedures,” chapter 18,
“Contractor Debt Collection,” November 1999, addresses the requirements for
contractor debt collection for which the disbursing officer has primary collection
responsibility. This regulation states that on determination by a disbursing officer that
a debt exists from a contractor, the disbursing officer shall make an immediate written
demand for payment for any debts over $50. One demand letter will be sent if the
amount is $50 or greater but less than $200. Two demand letters will be sent if the
amount is $200 or greater. Any debt that remains unpaid 30 days after the initial
demand for payment is considered delinquent and is subject to interest and
                                             1
administrative charges. If any debt of $600 or greater has not been resolved after two
demand letters have been sent to the contractor, it must be transferred by the disbursing
office to the Defense Finance and Accounting Service (DFAS) Columbus Center, Debt
Management Office, Policy and Review Office (Debt Management) for further action.
In order to allow for collection through subsequent efforts, and to permit the
accumulation of adequate supporting data, the disbursing office may retain the debt up
to a maximum of 90 days following the date of the initial demand letter.

The Defense Federal Acquisition Regulation Supplement (DFARS) subpart 232.6,
“Contractor Debts,” prescribes procedures to be followed to collect contracting officer
debts. The DoD Financial Management Regulation states that when a contracting
officer makes a determination of a debt and sends a demand letter to a contractor, a
copy also must be sent to the disbursing office and a copy to the funding and accounting
station. The disbursing office sets up a memorandum accounts receivable for the debt
and pursues collection on it as would be done for any other contractor debt.

Supporting Documentation Required. When a debt is transferred to Debt
Management, it should include supporting documentation such as copies of vouchers
paid under the contract which relate to the specific debt, amounts and dates of
collections received, copies of negotiated checks, all demand letters and other
correspondence with the debtor, and the taxpayer identification number.

Debt Management Procedures. Debt Management reviews each debt transferred to
ensure that the debtor has been given proper notice and due process. Debt Management
then sends the debtor a final contract debt notice to request payment and to notify the
debtor of other collection methods available if payment is not received. These
collection methods include registering the contractor on the List of Contractors Indebted
to the United States (List). Once registered on the List, payments due the contractor
will be subject to offset in payment of the debt. Any debts more than 180 days old
should be forwarded to the Department of Treasury Offset Program

List of Contractors Indebted to the United States. The List of Contractors Indebted
to the United States is developed and maintained by DFAS for use in offsetting any
money due a contractor from the Government. DFAS includes the names of
contractors indebted to other departments and agencies when informed by the creditor
agencies for inclusion on the List. The List is published quarterly and distributed to
multiple Federal agencies.

Treasury Offset Program. The Treasury Offset Program is a centralized debt
collection program developed by the Financial Management Service and operated
through its Regional Financial Centers. The Treasury Offset Program is designed to
assist agencies in the collection of delinquent debt owed to the Federal Government.
The Treasury Offset Program allows Federal agencies to collect debt through offset
from Federal payments due to the contractor.

Major Defense Contractors. The Defense Debt Management System (DDMS)
included debts with about 2,000 contractors. We focused our review on the largest
DoD contractors. We identified these large DoD contractors based on the total contract
dollar award.


                                            2
Objectives
The overall audit objective was to review the DoD contractor debt collection process
and the controls associated with the List of Contractors Indebted to the United States.
We also evaluated the effectiveness of the management control program as it related to
the audit objective. See Appendix A for a complete discussion of the scope,
methodology, and prior coverage.




                                           3
                     A. The DoD Contractor Debt
                        Collection Processes
                     DFAS did an inadequate job on debt collection from large DoD
                     contractors in the debt collection cases examined. DoD had 204 open
                     debts for $39.4 million with 37 large DoD contractors, some of which
                     have remained open since the mid-1980s. Specifically, 29 cases for
                     $8.6 million were apparently invalid and the collection period had
                     apparently lapsed for 9 cases valued at $0.4 million. We identified one
                     debt case for $17.8 million that had been collected by the Department of
                     Treasury, but was not subsequently forwarded to the DoD. Debts
                     remained open for those DoD contractors because DoD did not identify all
                     debts in a timely manner and did not actively work to collect or resolve
                     those debts. As a result, DoD had not collected $12.6 million in contractor
                     debt. If DFAS fully implements our recommendations, additional
                     monetary benefits will be achieved.

Age of Open Debt Cases
We identified and reviewed DoD contractor debt cases that were open as of
May 31, 2000. Our review was limited to debt cases with large DoD contractors. As
of May 31, 2000, DoD had 204 open debt cases with 37 large DoD contractors. Large
DoD contractors are contractors who do a high dollar value of business with the DoD.
Some of those debts remained open since the mid- to late 1980s. The following figure
identifies the age of the debt cases we reviewed.


                                                   Age of the Debt
                                                                 .




                                               (as of May 31, 2000)
                                                                                           Collection
                                                                                           Period
                                                                                           Lapsed
     10 years   10



                                                                      6 year statute of
     9 years    9
                                                                      limitation expired
     8 years    8




     7 years
     2
                7




     6 years    6




     5 years    5




     4 years    4




     3 years    3




     2 years    2




     1 year     1

                       Invalid
                 0




                      29         3   8   29   35     28   18    19    13    9     4         9

                                                   Number of Cases




                                                      4
DoD was not effectively collecting or resolving debt cases with large DoD contractors.
Problems occurred at all levels of the debt identification and collection processes. In
some cases, DoD was not identifying the existence of debts until many years after they
first accrued. It is imperative that DoD take action on the 19 contractor debts before
the statue of limitations for litigation expires in less than a year. See Appendix C for a
list of outstanding contractor debts.

Debt Cases for Which Collection Period Lapsed
DoD allowed the 10-year period for administrative offset to apparently lapse without
taking an offset against payments or taking other actions to collect the debts. We
identified nine cases with a total value of $459,282 that apparently lapsed without
successful collection actions. Following are two examples of debt cases that apparently
lapsed.

       •   A series of overpayments were made to the General Electric Company
           totaling $63,502 between February 20, 1987, and March 29, 1988. The
           overpayments were first identified on March 12, 1991, and transferred to
           Debt Management on May 18, 1992. Debt Management did not take any
           collection action on these debts until August 7, 2000, when collection of
           these debts was terminated. The reason given for termination of collection
           action was that the claim could not be substantiated with evidence because
           all the accounts receivable records had been destroyed because of age. The
           10-year period for administrative offset apparently lapsed for these debts
           between February 20, 1997, and March 29, 1998.

       •   A debt arose on February 12, 1986, from ITT Cannon Electric in the
           amount of $2,093, as the result of a credit memorandum for goods provided
           to the Defense Logistics Agency. The Defense Logistics Agency attempted
           to liquidate this debt through administrative offset on July 8, 1988, and by
           sending a demand letter requesting payment on January 18, 1989. The
           Defense Logistics Agency was not successful in collecting this debt and
           transferred it to Debt Management on February 8, 1994. Debt Management
           took no actions to collect this debt. The 10-year period for administrative
           offset apparently lapsed on February 12, 1996.

Date of Debt Recovery. Debt Management does not always use the correct date when
identifying the debt recovery dates for the 6-year statute of limitations for litigation and
the 10-year period for administrative offset. In many debt cases, Debt Management
incorrectly used the date of the first demand letter as the date that the debt accrued.
Debt Management should use the actual date the debt accrued. Use of the wrong debt
recovery dates could cause DoD personnel to incorrectly believe they have additional
time to collect debts or to incorrectly write off debts that have not lapsed. Following
are two examples of Debt Management using an incorrect debt accrual date.




                                             5
       •   McDonnell Douglas Corporation accrued a debt of $13,650 on
           September 13, 1996. This case was transferred to Debt Management for
           collection assistance on November 30, 1999. Debt Management incorrectly
           established the debt as September 7, 1999, which was the date of the first
           demand letter by DFAS Charleston. Debt Management sent a final demand
           letter on June 29, 2000. This debt had not been collected.

       •   A series of overpayments were made to Hughes Aircraft Company between
           October 12, 1989, and January 17, 1990, totaling $675. This case was
           transferred to Debt Management for collection on September 7, 1993. Debt
           Management incorrectly established the accrual date as February 9, 1993,
           which was the date of the first demand letter by DFAS Columbus Center,
           Accounts Receivable Division. However, the debts accrued between
           October 12, 1989, and January 17, 1990. Although the amount was rather
           small, Debt Management took no actions to collect those debts. The 10-year
           period for administrative offset lapsed between October 12, 1999, and
           January 17, 2000. However, those debts remained open in DDMS as of
           May 31, 2000.

DoD must work contractor debt cases in a timely manner to ensure that debts are
supported and collected before the statue of limitations expires or the 10-year period for
offset lapses. Using the correct date of debt recovery will ensure that DoD personnel
are working contractor debts in a timely manner and will prevent DoD from incorrectly
writing off debts that have not lapsed.

Invalid Debt Cases
The DDMS had 29 open cases totaling $8.6 million for large DoD contractors that were
apparently invalid as of May 31, 2000. These cases were invalid because the debts
were either collected or the debt cases were no longer active Debt Management debt
cases. Following are two examples of debt cases that were open in DDMS but were
invalid as of May 31, 2000.

       •   Raytheon Company accrued debts of $3,880 and $2,230 in January 1994.
           One of the debt files contained a check dated April 19, 1994, for $6,110 that
           paid both debts in full. However, Debt Management had not closed these
           debts in DDMS as of May 31, 2000.

       •   Mobil Oil Corporation accrued a debt of $1,507 with the Defense Supply
           Center Richmond, Defense Logistics Agency. Demand was made for
           payment in November 1998 and the debt was transferred to Debt
           Management on June 1, 1999. Debt Management sent a final demand letter
           requesting payment on July 31, 1999. Mobil Oil Company responded on
           October 28, 1999, with a copy of the canceled check dated
           December 31, 1998. Although payment was made in December 1998, Debt
           Management had not closed this debt in DDMS as of May 31, 2000.

Debt Management needs to take actions to close all invalid debts in DDMS.



                                            6
DoD Identification, Transfer, and Collection of Contractor
  Debt

Debt Cases Received by Debt Management
Identification of Debts. DoD did not always identify the existence of debts in a timely
manner. Following are two examples where the DoD did not identify the debt in a
timely manner.

       •   Science Applications International Corporation incurred a debt for $376,736
           on July 19, 1985, as a result of overpayments of progress payments. A
           subsequent DFAS contract review reduced the debt to $331,469. The 6-year
           statute of limitations date apparently lapsed on July 19, 1991, and the
           10-year period for administrative offset apparently lapsed on July 19, 1995.
           The existence of this debt was not discovered until a DFAS contract review
           was performed on December 1, 1995, after the 6-year statute of limitations
           and 10-year period for administrative offset had apparently lapsed.

       •   McDonnell Douglas Aircraft accrued a debt of $9,858 in April 1993, as the
           result of an unpaid bill for fuel. The debt was not discovered and a demand
           letter sent until May 5, 1997. This debt was over 4 years old before it was
           identified. DoD had not collected this debt.

Some debts were identified during DFAS contract reviews. DFAS contract reviews
were not always performed timely to identify the existence of debts. DFAS contract
reviews can be performed at any time during the contract period, as well as when the
contract closes. These reviews can occur for a variety of reasons and can be requested
by DFAS, the Contracting Officer, or the contractor. Since the statue of limitations
date and the time available for administrative offset normally begins on the date the
debt was accrued, it is imperative that DoD identify all debts as they occur to allow
adequate time for collection. Identification would be accomplished through DFAS
contract reviews on a routine basis.

Debts Sent to Debt Management. For many cases, DoD activities did not send the
debt cases to Debt Management in a timely manner. DoD guidance states that debts
should be forwarded to Debt Management for collection for any debts not collected
within 90 days of sending the first demand letter. However, 123 debts we reviewed
were not received into Debt Management for collection action until they were over
300 days old. Of the 123 debts, 35 were over 1,000 days old before transfer to Debt
Management. Fifty-five of 123 were not received timely because the debts were not
identified timely, and 117 of 123 were not transferred timely after demand was made
for payment by the DoD activities. Forty-nine were in both categories. Following are
two examples of debt cases not received by Debt Management in a timely manner.




                                           7
       •   Rockwell International Corporation incurred a debt of $36,042 as the result
           of a duplicate payment made on March 8, 1996. DFAS Charleston sent two
           demand letters to attempt to collect the debt. When their collection efforts
           were unsuccessful, DFAS Charleston transferred the debt to Debt
           Management. However, this transfer did not take place until
           April 21, 1999, after the debt was 1,144 days old. This debt remained open
           in DDMS.

       •   Honeywell Incorporated accrued a debt of $46,236 as the result of a
           duplicate payment made on March 8, 1996. DFAS Columbus sent a demand
           letter to attempt to collect the debt. When collection efforts were
           unsuccessful, DFAS Columbus transferred the debt to Debt Management.
           However, this transfer did not take place until February 4, 2000, when the
           debt was 1,428 days old. This debt remained open in DDMS.

Because successful debt collection becomes increasingly difficult as the delinquencies
age, DoD organizations need to identify and transfer debts to Debt Management for
collection action in a timely manner.

Documentation to Support Debt Validity. DoD organizations did not always provide
Debt Management with the necessary documentation to support the validity of the debts
and did not always respond to requests for additional documentation. As a result, Debt
Management had to write off debts without collection because support could not be
provided to the contractor to substantiate the validity of the debt. Following are two
examples of DoD organizations not providing the necessary documentation.

       •   General Dynamics, Convair Division, accrued a $3,591 debt as a result of a
           duplicate payment made on June 30, 1992. The Defense Accounting Office
           Cleveland transferred this debt to Debt Management in July 1994. Debt
           Management did not take any action on this debt until a final demand letter
           was sent on July 6, 1998. Debt Management terminated collection action
           for this debt on October 12, 2000, because it was unable to substantiate the
           validity of the debt. DoD did not maintain copies of both negotiated checks
           and was unable to obtain copies of the canceled checks from the Department
           of Treasury because the Department of Treasury does not retain canceled
           checks past 6 years. If the Defense Accounting Office Cleveland had sent
           all supporting documents or if Debt Management had taken collection action
           in a timely manner, this debt could have been substantiated and collected.

       •   Debt Management received a $5,985 debt for Boeing North American
           Incorporated on April 26, 1999. Debt Management issued a final demand
           letter to Boeing requesting payment on May 20, 1999. Boeing disputed the
           debt on June 30, 1999. Debt Management sent a letter to DFAS Charleston
           requesting it review the debt, respond to the contractor dispute, and provide
           Debt Management with a copy of the response. Debt Management followed
           up on this case in April and June 2000 but no additional documentation was
           provided. Therefore, Debt Management returned this debt to the originating
           office, DFAS Charleston, on September 25, 2000, and terminated debt
           collection efforts.



                                           8
Debt Management needs to review debt cases upon receipt for adequate supporting
documentation and immediately return debts that are not properly supported to the
originating organization.


Final Demand Letters
Once a debt case is received in Debt Management, the first action taken to attempt to
collect the debt is to send the contractor a final demand letter. Section 3716, title 31,
U.S.C., states that DoD must provide the contractor with the following:

       •   a written notice of the type and amount of the claim, the intention of the
           head of the agency to collect the claim by administrative offset, and an
           explanation of the rights of the debtor;

       •   an opportunity to inspect and copy the records of the agency related to the
           claim;

       •   an opportunity for a review within the agency of the decision of the agency
           related to the claim; and

       •   an opportunity to make a written agreement with the head of the agency to
           repay the amount of the claim.

DoD cannot proceed with any offsetting efforts until final demand letters are sent to the
debtors notifying them of the debt and of other collection methods available if the debt
is not liquidated. In addition, standard operating procedures for Debt Management
require that a final demand be issued.

No Final Demand Letters Sent. Debt Management had not issued a final demand
letter for 61 cases totaling $7.8 million. Following are two examples of contractor
debts for which Debt Management had not sent final demand letters.

       •   AT&T Networks accrued a debt on January 31, 1994, for $9,367. That debt
           was transferred to Debt Management on January 6, 1995, for collection.
           For more than 5 years, Debt Management had not sent a final demand letter
           to the contractor or taken other actions in an attempt to collect the debt. The
           debt remained open in DDMS.

       •   Humana Care Plus accrued a $2,076 debt on April 10, 1997, for a claim of
           aeromedical evacuation. That debt was transferred to Debt Management on
           August 4, 1998, for collection. For more than 2 years, Debt Management
           had not issued a final demand letter to the contractor or taken other actions
           in an attempt to collect the debt. The debt remained open in DDMS.

Debt Management should issue demand letters for which no collection efforts have been
taken.




                                             9
Timeliness of Final Demand Letters. Debt Management did not send final demand
letters in a timely manner for 87 cases. We determined that final demand letters were
not timely if Debt Management did not send a final demand letter within 30 days after
receipt of the debt. Following are two examples of debt cases that Debt Management
did not send final demand letters in a timely manner.

       •   AT&T Technologies Incorporated accrued a debt of $4,093 on
           February 8, 1993, for missing material. That debt was transferred to Debt
           Management on July 20, 1993, and Debt Management did not take any
           action to collect that debt until a final demand letter was issued 2,078 days
           later on March 29, 1999. That debt remained open in DDMS.

       •   Raytheon Systems Company accrued a debt of $1,459,970 on
           November 16, 1998, as a result of a modification to the contract. An offset
           was taken in February 1999 reducing the principal balance to $1,455,722.
           Debt Management received the debt on February 5, 1999, but a final
           demand letter was not sent until May 15, 2000, 465 days after receiving the
           debt. That debt remained open in DDMS.

Debt Management needs to establish procedures to ensure that the final demand letters
are issued in a timely manner.


Administrative Offsets
The DoD did not always execute administrative offsets for contractor debt. The DoD
did not execute administrative offsets for 101 debts totaling $22.5 million that had final
demand letters issued. DoD had improperly limited its collection efforts through
administrative offset because Debt Management routinely checks the Mechanization of
Contract Administrative System (MOCAS) only once for payments due to the debtor, it
only executes offsets against payments if the Contractor and Government Entity Code
are the same, and because it does not have access to all entitlement systems. DoD
needs to take actions to identify payments and perform administrative offsets for
contractor debts in which a final demand letter has been issued.

Checking MOCAS for Offsets. The DoD did not always identify potential offsets in
MOCAS. From our review of debt files, we determined that Debt Management
personnel routinely check MOCAS just once for payments due to a debtor. That
practice limits DoD collection abilities. Frequent review of payments due in MOCAS
and all entitlement systems is warranted.

In addition, DoD debt collection processes did not allow for adequate identification of
payments due to contractors for administrative offset purposes. For example, Lockheed
Martin Corporation accrued four debts totaling $6,315 between July 31, 1997, and
November 30, 1997. In 1999, 41,409 invoices totaling about $12.1 billion were paid to
Lockheed Martin Corporation. Because DFAS Omaha did not have access to MOCAS
and did not transfer the debts to Debt Management until March 17, 2000, those debts
were not collected through administrative offset.

Offsetting within Contractor and Government Entity (CAGE) Codes. The DFAS
did not use all available information to identify contractor payments that could have

                                            10
been offset to liquidate debts. DFAS does not search for payments to offset debts by
contractor name, tax identification number, or other information. Instead, it is DFAS
practice to perform offsets only within the same CAGE Code. CAGE Codes are used
to support a variety of mechanized systems throughout the Government and provide a
standardized method of identifying a given facility at a specific location. All DoD
contractors must be assigned at least one CAGE Code from the Defense Logistics
Information Service, but frequently they are assigned multiple CAGE Codes if
additional contracts are awarded. Since multiple CAGE Codes can be assigned to each
contractor, DFAS was limited to collecting from one contract only. While this is
occurring, payments due on other contracts are being made to the contractor. For
example, McDonnell Douglas incurred a debt on October 24, 1997, for $204,233 as a
result of an overpayment under CAGE Code 28861. The debt was transferred to Debt
Management for collection on July 2, 1999. Debt Management searched the MOCAS
database by CAGE Code to identify payments due to McDonnell Douglas that could be
used to offset this debt. Because the CAGE Code had subsequently changed to 76301,
Debt Management was unable to locate a payment for offset.

During the audit, we requested that Debt Management obtain the tax identification
number and forward the debt to the Treasury Offset Program for collection. Debt
Management entered this debt into the Treasury Offset Program on June 9, 2000. The
Treasury Offset Program, using the tax identification number, was able to offset a
payment due to McDonnell Douglas within 6 days of receiving the debt to collect the
debt in full, including an additional $33,133 in interest and administrative fees. The
use by Debt Management of the company name, tax identification number, and Dun
and Bradstreet number, as well as other company-specific information, would increase
the ability of DoD to identify payments to contractors that can be used to liquidate
debts.

Access and Interfaces with Entitlement Systems. The only entitlement system that
Debt Management has access to is MOCAS. The DDMS does not electronically
interface with DoD entitlement systems or the Treasury Offset Program. As a result,
Debt Management is limited on the potential offsets it can identify. Access to all DoD
entitlement systems would increase Debt Management’s ability to identify potential
offsets.

The Defense Procurement Payment System will be the standard automated contract and
vendor payment entitlement system for the DoD. The Defense Procurement Payment
System does not interface with DDMS, the List, or the Treasury Offset Program. An
interface between the Defense Procurement Payment System and DDMS would help
DoD identify offsets for contractor debts. Interfacing the Defense Procurement
Payment System with the List would also help identify offsets for contractor debts.
Interfacing the Defense Procurement Payment Systems and other DoD entitlement
systems to the Treasury Offset Program would streamline the process and eliminate the
need for the List.

Referring Contractor Debts for Collection. DoD was not referring all eligible
contractor debts to the Treasury Offset Program or the List. The DoD did not refer
99 eligible debts totaling $22.4 million of large DoD contractors to the Treasury Offset
Program. Since the Tax Identification Number of the contractor must be included when
a debt is referred to the Treasury Offset Program, Debt Management should identify
the tax identification number for contractor debts and refer them to the Treasury Offset

                                          11
Program. Debt Management did not refer 89 eligible debts totaling $22.2 million to the
List. As a result, those debts remained uncollected. Debt Management should refer
eligible contractor debt to the List.

UNICOR
As of May 31, 2000, DoD had four open debt cases accrued between September 1997
and December 1999 for $88,581 with UNICOR Federal Prison Industries. Since
UNICOR Federal Prison Industries is a federal entity, DoD is not allowed to collect
any debts through administrative offset. However, DoD should perform other
collection actions, such as sending final demand letters and contacting UNICOR
Federal Prison Industries directly to collect these debts.

Cross-Servicing
DoD was not complying with the Debt Collection Improvement Act of 1996
requirement to send delinquent debts to the Treasury Department for cross-servicing for
collection. Cross-servicing is one of two programs run by the Treasury to aid in debt
collection. Treasury Department guidance for implementation of the Debt Collection
Improvement Act of 1996 requires agencies to transfer a debt or claim that is delinquent
for 180 days or more to the Treasury for collection, with the following exclusions:

       •   The debt is in litigation or foreclosure, meaning that the debt has been
           referred to the Department of Justice; a complaint has been filed; or a notice
           of default has been issued.

       •   The debt will be disposed of in an asset sales program within 1 year after
           becoming eligible for sale, or later than 1 year if consistent with an Office of
           Management and Budget/Treasury-approved asset sales program.

       •   The debt is at a private collection agency for a period of time established by
           Treasury.

       •   The debt has been referred to a Federal debt collection center designated by
           Treasury.

       •   The debt will be collected by internal offset within 3 years of delinquency.

Although the debts included in our review should not be eligible for the cross-servicing
because the debts for large contractors should be collected by internal offset within
3 years of delinquency, DoD was not sending other eligible debts to the cross-servicing
program. Debt Management should institute procedures to refer eligible debts to the
Treasury cross-servicing program to aid in collection.

Conclusion
DoD was not identifying the existence of debts in a timely manner and effectively
collecting or resolving debt cases. DoD did not use all collection tools available to
actively collect contractor debt. As a result, $12.6 million in contractor debt had not
                                            12
been collected. The amounts due ranged from $25 to $6.4 million. To improve its
financial management, DoD must identify contractor debt in a timely manner and more
efficiently collect debts through offsets and other collection techniques.

Actions Taken During Audit
During the audit, Debt Management took actions to collect and resolve some of the debt
cases. On August 23, 2000, we requested that Debt Management take immediate action
to send demand letters to initiate collection efforts for 54 debt cases and to send 94 debt
cases for administrative offset. DFAS responded to our request on September 20,
2000, and Debt Management took actions to initiate collection efforts and to collect or
resolve some of those debt cases.

In Inspector General, DoD, draft report, Project No. D2000FI-0151, “DoD Contractor
Debt Collection Process” December 15, 2000, we identified a debt owed by Hughes
Aircraft Company in the amount of $25.6 million. Subsequent to the issuance of the
draft report, we determined that Hughes Aircraft Company and the United States
Government settled this debt on April 9, 1997, for $17.8 million. Hughes Aircraft
Company paid the settlement amount of $17.8 million to the U.S. Treasury on
April 22, 1997. On February 13, 2001, we issued a memorandum to the Director,
DFAS Columbus, Contract Pay Services, informing them that the Hughes Aircraft
Company debt had been settled and the debt paid to the U.S. Treasury. We
recommended that the Debt Management Policy and Review Office take all appropriate
action to recover the funds from the U.S. Treasury, close this debt in DDMS, and
notify the accounting office that the debt should be removed from its official accounts
receivable records. We have revised the final report to reflect the amount of debt as
$17.8 million.

Recommendations, Management Comments, and Audit
  Response
A. We recommend that the Director, Defense Finance and Accounting Service:

   1. Review all contractor debt accrual dates, identify the actual date that the
debt was accrued, and revise the accrual date in the Defense Debt Management
System.

Management Comments. DFAS nonconcurred and stated that the Debt Management
Office (DMO) has issued instructions to its staff to identify, where applicable, the
actual date the debt occurred to establish the Statute of Limitation. DFAS also stated
that as the aged inventory is processed, each Statute of Limitation date will be reviewed
to ensure compliance. However, since the Debt Management Office had approximately
3000 existing debts, of which many are in litigation, it would not be feasible nor cost
effective to attempt a total review at this time.




                                            13
Audit Response. Although DFAS nonconcurred, the instructions issued by DFAS will
ensure that the statute of limitations date will be maintained on debts accrued in the
future. We consider these actions to be responsive to our recommendation.


    2. Review all contractor debts for debt validity and take actions necessary to
close all invalid debts in the Defense Debt Management System.

Management Comments. DFAS nonconcurred and stated that contractor debts are
determined by DFAS and other DoD components and are verified before it is set up in
DDMS. DFAS stated that the debts identified in the audit were for debts not totally
cleared in the DDMS. On a continuing basis, DMO technicians will manually review
the End of Month Closed Listing and verify that applicable debt files are properly
closed each month. DFAS further stated that a complete review of all debts in DDMS
would not be cost effective due to the volume and age of the debts.

Audit Response. Although DFAS nonconcurred, the manual review of the End of
Month Closed Listing and verifying that applicable debt files are properly closed each
month meets the intent of our recommendation. We consider these actions to be
responsive to our recommendation.


   3. Require the Defense Finance and Accounting Service Columbus Center,
Contract Pay Services, perform contract reviews on open contracts at least every
4 years.

Management Comments. DFAS nonconcurred and stated that the cost is prohibitive
and that there was no correlation between this recommendation and the findings.
DFAS estimated it would take 995 work years to implement this recommendation.

Audit Response. Some debts were not identified in a timely manner. Our example on
page 7 of the report shows a debt that was not discovered until after the 6-year statute
of limitations and 10-year period for administrative offset had apparently lapsed. A
timely review of the contract would have disclosed the debt before the statute of
limitations and 10-year period for administrative offset had lapsed. We request that the
Director, DFAS reconsider their position and provide additional comments on this
recommendation in response to the final report.




   4. Instruct accounts receivable organizations to review all accounts receivable
more than 90 days old, and refer the debt to the Debt Management Policy and
Review Office.

Management Comments. DFAS concurred and stated that guidance was in place
requiring debts over 90 days old to be forwarded to DMO if specific criteria were met.
                                           14
DFAS stated that internal controls were now in place for supervisors to monitor all
debts, by age, on a weekly basis. DFAS further stated that as part of the Management
Control Review Program, the DMO is working with the Management Control Review
Project Officer to document goals and internal controls and that the reviews would take
place quarterly to determine and document the adequacy of internal controls.


    5. Review debt cases on receipt for proper supporting documentation, and
immediately return debts that are not properly supported to the originating
activity.

Management Comments. DFAS concurred and stated that if missing documents can
be acquired without returning the case file, then the DMO requests documentation and
continues with the debt collection process. If DMO determines that a debt should be
returned, a letter is prepared within 5 business days, explaining the reason for the
action and the debt is returned to the originating activity.

   6. Identify all contractor debt cases for which no collection efforts have been
taken and issue final demand letters to inform the debtor of the debt, notify the
debtor of other collection methods available if payment is not received, and
perform administrative offsets for contractor debt in which payment is not
received within 60 days.

Management Comments. DFAS concurred and stated that a suspense date will be
established for review of files coded work in process to ensure collection action has
been initiated.


   7. Establish procedures to issue all final demand letters within 30 days of
receiving the debt.

Management Comments. DFAS concurred and stated that as of January 4, 2001,
procedures have been revised suspensing new debt files to meet a 30 day window for
issuance of the final demand letter.


   8. Take action to identify payments and perform administrative offsets for
contractor debts in which a final demand letter has been issued.

Management Comments. DFAS concurred and stated that a comprehensive review
would be performed to initiate collection action on all debt files coded work in process.


   9. Revise the business practice for performing administrative offsets against
payments to include but not limited to company name, tax identification number,
and Dun and Bradstreet number.



                                           15
Management Comments. DFAS concurred and stated that the MOCAS database now
includes a Tax Identification Number filed that may be accessed by DMO for
identification of the contractors’ Tax Identification Number. DFAS further stated that
the controlling factors for Treasury Offset Program offsets are the Tax Identification
Number, Social Security Number, or Debt Case Number.

  10. Provide the Debt Management Policy and Review Office with access to all
DoD entitlement systems to identify administrative offsets for contractor debts.

Management Comments. DFAS concurred and stated that they are working to
identify the remaining DoD entitlement systems to which the DMO requires access and
initiate the request. The DMO received access to the Vendor Pay Inquiry System on
January 9, 2001, which provides DMO with visibility of invoices that are awaiting
payment in the DFAS Vendor Pay Entitlement System. DFAS further stated that by
April 16, 2001, the DMO will have access to the Contractor Debt System which will
provide visibility of all MOCAS invoices.


    11. Require the Defense Procurement and Payment System to electronically
interface with the Defense Debt Management System and the List of Contractors
Indebted to the United States so that administrative offsets can be made against
payments for contractors with debts.

Management Comments. DFAS nonconcurred and stated that at the time that the
Defense Procurement Payment System begins implementation, the Defense
Procurement Payment System will begin to record and track debts. The current and
temporary replacement systems will brown out and totally migrate to Defense
Procurement Payment System by the end of August 2004. Until that time, DFAS stated
that they are scheduled to replace DDMS with the Contractor Debt Collection System
by April 30, 2001. DFAS stated that attempting to develop an automated interface
between the Contractor Debt Collection System and the Defense Procurement Payment
System is not feasible due to the development schedule of the Defense Procurement
Payment System and the temporary nature of the Contractor Debt Collection System.
DFAS further stated that an interface with all payments systems is imperative,
however, the partially automated effort implemented subsequent to our audit, is
effective and efficient until the Defense Procurement Payment System is deployed.

Audit Response. We agreed that the automated effort implemented subsequent to our
audit is effective and efficient until the Defense Procurement Payment System is
deployed. However, to ensure that debts on the List of Contractors Indebted to the
United States are offset against potential payments, the Defense Procurement Payment
System should interface with the List. We request that the Director, DFAS provide
additional comments on this recommendation in response to the final report.

  12. Take aggressive actions to identify the tax identification numbers for all
DoD contractor debts and refer eligible debts to the Treasury Offset Program.

                                          16
Management Comments. DFAS concurred and stated that DMO now has access to
other to additional information to purse obtaining the Tax Identification Numbers. The
DMO office will continue to utilize all tools available to refer eligible debts to the
Treasury Offset Program.


   13. Review current DoD contractor debts and refer eligible debts to the List of
Contractors Indebted to the United States.

Management Comments. DFAS concurred and stated procedures are in place to
utilize the List and that instructions have been issued to ensure these procedures are
followed.


    14. Contact responsible personnel at UNICOR Federal Prison Industries
directly and request reimbursement for all outstanding debts.

Management Comments. DFAS concurred and stated that UNICOR is listed in the
Treasury Offset Program and payments are being offset. DFAS further stated that
coordination has been established with a UNICOR representative and collection action
is in process.


   15. Refer delinquent contractor debt to the Department of Treasury Cross-
Servicing Program in accordance with the Debt Collection Improvement Act of
1996.

Management Comments. DFAS concurred and stated that a Memorandum of
Agreement is being drafted between the Treasury and DMO that will identify the
services provided in the debt collection process. DFAS further stated that all eligible
debts will be transferred to the Treasury Cross-Servicing Program in accordance with
the Debt Collection Act of 1996.




                                            17
              B. The List of Contractors Indebted to
                 the United States
                  The List of Contractors Indebted to the United States:

                      •   did not include sufficient data to ensure that disbursing officers
                          could identify payments in order to administratively offset
                          contractor debt,

                      •   did not include all eligible contractor debts,

                      •   included debts that were apparently invalid, and

                      •   did not include sufficient data to ensure that debts were
                          removed in a timely manner.

                   The problems with the List occurred because DFAS did not add the
                   tax identification numbers to the List, did not refer all eligible debts to
                   the List, did not always update the List, and did not include the
                   10-year period for administrative offsets. As a result, the List was not
                   an effective tool to collect contractor debts, and potential
                   administrative offsets were not made against payments to collect
                   contractor debts.

List of Contractors Indebted to the United States
Maintaining the List of Contractors Indebted to the United States. The List is
maintained and distributed by the DFAS General Counsel located at the DFAS
Indianapolis Center. All requests to add a debtor to the List come from Debt
Management at the DFAS Columbus Center, Transportation Pay Office, at the DFAS
Indianapolis Center, and from any Federal Government agency. The List is distributed
quarterly through electronic mail. Hard copies are mailed only to those agencies unable
to receive the List electronically.
Using the List of Contractors Indebted to the United States. The purpose of the List
and disseminating the List is to put all contracting agencies of the Government on
notice of debts arising under contracts with other agencies, so that amounts due the
indebted contractors may be withheld for application against the debts. DoD disbursing
officers should routinely check the List for potential offsets before payments are made
to contractors.

Taxpayer Identification Number. Taxpayer identification numbers include three
categories: the employer identification number, individual taxpayer identification
number, and social security number. The employer identification number is a nine-
digit number that the IRS uses to identify taxpayers who are required to file various
business tax returns. Employers, sole proprietors, corporations, partnerships, certain
individuals, and other business entities use employer identification numbers. The




                                            18
individual taxpayer identification number is a nine-digit tax processing number that is
for certain nonresident and resident aliens, who cannot acquire a social security
number.

Duns Number. The Duns number is an exclusive nine-digit number assigned to each
business location by Dun and Bradstreet. The Duns number is widely used as a tool for
identifying, organizing, and consolidating information about businesses. Companies
use it to link information about suppliers, customers, and trading partners, providing a
more complete picture of risks and opportunities.

CAGE Code. The Defense Logistics Information Service has sole responsibility for
assigning and maintaining the CAGE Code master file. The CAGE Code is a five-
position code that identifies contractors doing business with the Federal Government,
North Atlantic Treaty Organization member nations, and other foreign governments.
The CAGE Code is used to support a variety of mechanized systems throughout the
Government and provides a standardized method of identifying a given facility at a
specific location. Having a CAGE Code alone is not sufficient to qualify a contractor
to do business with DoD.

Data Maintained on the List of Contractors Indebted to the
  United States to Determine Offsets
The ability of disbursing officers to identify offsets is limited because not all available
information is included on the List. For a disbursing officer to identify payments to
administratively offset contractor debt, the disbursing officer needs to be able to
determine that the company owing the debt and the company whose payment is being
offset are the same. Currently, the disbursing officers can only use the name and
address of the company. The taxpayer identification number, Duns and Bradstreet
number, and CAGE Code could also be used. The tax identification number, CAGE
Code, and Duns number were added to the List in January 2000. However, in most
cases, those fields were not populated with the required data. Adding these identifying
numbers to all existing debts on the List would assist disbursing officers in identifying
eligible payments for offset. The Centralized Contractor Registry has the taxpayer
identification number, Duns and Bradstreet number, and CAGE Code so that DFAS
could use the Centralized Contractor Registry as a tool in populating these fields.

Referring Contractor Debts to the List of Contractors
  Indebted to the United States
DoD did not always add eligible contractor debts to the List. As discussed in
finding A, Debt Management did not refer 89 debts of large DoD contractors to the
List. As a result, disbursing officers were not aware that those debts needed to be
collected and potential offsets were not accomplished.




                                            19
Validity of Debts
The List contains debts that were apparently invalid. A comparison between debts that
are closed in DDMS because they have been paid and debts appearing on the List for
July through September 2000 revealed that 29 paid debts closed between February 23,
1996, and June 14, 2000, still appeared on the List. Following are two examples of
debts that have been collected but remain on the List.

              •   McDonnell Douglas Corporation owed a debt in the amount of
                  $10,544 plus interest. Debt Management placed this debt on the List
                  on May 18, 1998. McDonnell Douglas sent a letter to Debt
                  Management paying the debt in full on July 31, 1998. On August
                  24, 1998, Debt Management sent a memorandum to DFAS
                  Indianapolis requesting that the debt be removed from the List.
                  However, the debt still appeared on the List.

              •   Lockheed Martin Corporation owed a debt in the amount of
                  $758 plus interest. Debt Management placed this debt on the List on
                  April 1, 1999. On May 7, 1999, the debt was collected in full
                  through an offset by the Treasury Offset Program. On
                  June 17, 1999, Debt Management sent a memorandum to DFAS
                  Indianapolis requesting that the debt be removed from the List. That
                  debt still appeared on the List.

As a result, debts that are apparently invalid are appearing on the List, and there is
potential for erroneous offsets to occur when the debt has already been paid in full by
the contractor.

Data Needed to Remove Debts in a Timely Manner
DoD was not using the proper debt recovery date to determine when debts should be
removed from the List. The List does not include the date when the 10-year period for
offsetting the debt from an existing payment expires. An administrative offset for a
debt may be made only for the period of 10 years after the debt is accrued. The List
contains a “List Start Date,” which is the date that the debt was placed on the List.
Use of this date cannot accurately determine when a debt should be removed. Due to
the advanced age of many debts at the time they are placed on the List, some debts
could remain on the List after the 10-year period for offset has lapsed. Debt
Management does provide the Statute of Limitation date in their requests to add debtors
to the List; however, this date is not always accurate and is not being used by DFAS
Indianapolis. As a result of not including the correct date for the 10-year period for
offset on the List, the potential exists for debts to be removed before or after the
10-year period for administrative offset expires.




                                           20
Conclusion
The List did not include sufficient data, did not include eligible debts, and included
debts that were apparently invalid. As a result, the List is not an effective tool to
collect contractor debts. DFAS needs to include sufficient data on the List so that
disbursing officers can identify potential payments to offset the contractor debt. The
List must also include sufficient data to identify and remove potentially lapsed and
invalid cases.

Recommendations
B. We recommend that the Director, Defense Finance and Accounting Service:

    1. Identify and add the taxpayer identification number, Dun and Bradstreet
number, contractor and Government entity code, and the 10-year period for offset
for all existing debts on the List of Contractors Indebted to the United States and
all debts added to the List of Contractors Indebted to the United States.

Management Comments. DFAS nonconcurred and stated that the DMO office has
ensured that all required information for commercial pay debt was entered on any debt
added to the list within the last two years. DFAS stated that debts on the List older
than two years are archived and it would be cost prohibitive to retrieve and review
those debts.

Audit Response. Although DFAS nonconcurred, we consider these actions to be
responsive to our recommendations.

   2. Review the List of Contractors Indebted to the United States and remove
invalid debts.

Management Comments. The DFAS Columbus Center nonconcurred and stated that
as the DMO complies with Recommendation A.1, the statute of limitations dates will be
reviewed and Debt Management Office’s portion of the list verified.

Audit Response. Although DFAS nonconcurred, we consider these actions to be
responsive to our recommendations.




                                           21
Appendix A. Audit Process

Scope
Work Performed. The DoD had contractor debt totaling about $3.6 billion for
3,061 debts. We reviewed 216 contractor debts totaling $2.8 billion for large DoD
contractors as of May 31, 2000. Large DoD contractors are contractors who do a high
dollar value of business with the DoD. Of the 216 contractor debts, we identified
12 debt cases in deferment totaling $2.76 billion. Of the 204 open debts, we identified
29 debt cases that were apparently invalid and 9 debt cases that had apparently lapsed
totaling $9.0 million. We also identified one debt case for $17.8 million that had been
collected by the Department of Treasury but was not subsequently forwarded to the
DoD. We reviewed the remaining 165 contractor debt cases totaling $12.6 million.
We reviewed a database of all invoices paid in 1999 from MOCAS. We reviewed the
List for April through June 2000 and July through September 2000. We reviewed laws
and regulations applicable to debt collection and interviewed DFAS personnel involved
in the debt collection process.

DoD-Wide Corporate Level Government Performance and Results Act Coverage.
In response to the Government Performance and Results Act, the Secretary of Defense
annually establishes DoD-wide corporate level goals, subordinate performance goals,
and performance measures. This report pertains to achievement of the following goal
and subordinate performance goal.

   •   FY 2001 DoD Corporate Level Goal 2: Prepare now for an uncertain future
       by pursuing a focused modernization effort that maintains U.S. qualitative
       superiority in key warfighting capabilities. Transform the force by exploiting
       the Revolution in Military Affairs, and reengineer the Department to achieve a
       21st century infrastructure. (01-DoD-02)

   •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial and
       information management. (01-DoD-02.5)

DoD Functional Area Reform Goals. Most major DoD functional areas have also
established performance improvement reform objectives and goals. This report pertains
to achievement of the following functional area objectives and goals.

   Financial Management Functional Area: Objective: Reengineer DoD business
   practices. Goal: Improve data standardization of finance and accounting data
   items.

General Accounting Office High-Risk Area. The General Accounting Office has
identified several high-risk areas in the DoD. This report provides coverage of the
Defense Financial Management high-risk area.




                                          22
Methodology
To determine whether DoD procedures for collecting and offsetting contractor debts
were adequate, we reviewed debt cases for large DoD contractors. We reviewed
applicable laws and regulations. We also received assistance from personnel in the
Office of the Deputy General Counsel (Inspector General). To determine the
procedures used by DoD to collect and offset contractor debts, we met with DFAS
personnel.

Computer-Processed Data. We relied on computer-processed data from DDMS to
identify debt cases for large DoD contractors. Although we did not perform a formal
reliability assessment of the computer-processed data, we determined that the contractor
debt cases in DDMS generally agreed with the hard copy contract debt case files. We
did not find errors that would preclude use of the computer-processed data to meet the
audit objectives or that would change the conclusions in this report.

Audit Type, Dates, and Standards. We performed this economy and efficiency audit
from April 2000 through November 2000, according to auditing standards issued by the
Comptroller General of the United States, as implemented by the Inspector General,
DoD. Accordingly, we included tests of management controls considered necessary.

Contacts During the Audit. We visited or contacted individuals and organizations
within DoD, the Department of Treasury, and the General Accounting Office. Further
details are available on request.

Management Control Program Review
DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996, and
DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
August 28, 1996, require DoD organizations to implement a comprehensive system of
management controls that provides reasonable assurance that programs are operating as
intended and to evaluate the adequacy of the controls.

Scope of the Review of the Management Control Program. We reviewed
management controls over the DoD contractor debt collection process including
collection techniques and the List. We also reviewed management’s self-evaluation
of the management controls over the DoD contractor debt collection process.

Adequacy of Management Controls. We identified a material management
control weakness as defined by DoD Instruction 5010.40, “Management Control
(MC) Program Procedures,” August 28, 1996. Management controls over the DoD
contractor debt collection process were not adequate to ensure that DoD collected
contractor debts. If management implements Recommendations A.1., A.2., A.3.,
A.4., A.5., A.7., A.9., A.10., A.11., A.12., A.13., A.15., B.1., and B.2., DoD
will be able to identify and collect an undeterminable amount of contractor debt. If
management implements Recommendations A.6., A.8., and A.14., DoD will
collect $12.6 million in open contractor debt. The recommendations in this report,


                                          23
if implemented, will improve controls over identifying and collecting contractor
debt. A copy of the report will be provided to the senior official responsible for
management controls in DFAS.

Adequacy of Management’s Self-Evaluation. DFAS officials identified debt
management as an assessable unit and, in our opinion, correctly identified the risk
associated with debt management. Although Debt Management officials identified the
material weaknesses related to the timeliness of actions on debt cases identified by the
audit, DFAS officials did not report the material weaknesses in their annual statement
of assurance because they did not consider the weaknesses significant enough to report
to higher management.

Prior Coverage

GAO
   GAO Report No. NSIAD-00-264, “Department of Defense Implications of
   Financial Management Issues,” July 20, 2000


Inspector General, DoD
   Inspector General, DoD, Report No. 96-038, “Debt Collection and Deposit
   Controls in the Department of Defense,” December 11, 1995

   Inspector General, DoD, Report No. 95-234, “ Department of Defense Compliance
   with Federal Tax Reporting Requirements,” June 14, 1995




                                           24
Appendix B. Outstanding Contractor Debts
               Contractor Name                         Amount of Debt    Age in Days
Allied Signal1                                             $     1,582            1923
Allied Signal1                                                   4,533            2150
Allied Signal1                                                     994            1806
Allied Signal Aerospace Canada1                                  1,038            1406
Allied Signal Aerospace Company1                               10,973             1682
Allied Signal Commercial AV/Allied Signal                        2,350             817
Aerospace1
Allied Signal Engines1                                            985            1283
Allied Signal Engines1                                         39,342            1435
Allied Signal Engines1                                          3,400            1253
Allied Signal Technical Services Company1                         622            1343
Allied Signal Technical Services Company1                         384            1252
Allied Signal, Inc.1                                              139            1830
Allied Signal, Inc.1                                            3,078            1740
AT&T1                                                           2,178            1135
AT&T1                                                           1,930             945
AT&T1                                                           1,884            1720
AT&T Corporation1                                              18,438            3312
AT&T FSAT Manufacturing Center1                                 4,985            2079
AT&T Information2                                              13,298            4254
AT&T NTWRKYS1                                                   9,367            2312
AT&T NTWRKYS1                                                     992            2344
AT&T Tech/Federal Systems1                                      1,417            2126
AT&T Technologies1                                                917            2435
AT&T Technologies1                                              4,093            2669
AT&T Technologies1                                                 25            2042
AT&T Teletype2                                                    688            3675
Avondale1                                                          90            2119
Avondale Industries1                                              826            2073
Bechtel1                                                        1,556             669
Boeing1                                                         6,500            1044
Boeing1                                                         1,233             473
Boeing1                                                         1,668             314
Boeing1                                                        18,384             315


Note: See footnotes at the end of the appendix.


                                                  25
                 Contractor Name                       Amount of Debt    Age in Days
Boeing  1
                                                           $ 46,738                953
Boeing1                                                        65,365              577
Boeing Commercial Airplane1                                    61,503              944
Boeing North American1                                           5,985             845
DynCorp2                                                         6,387            4039
DynCorp2                                                         2,299            4291
General Dynamics1                                                3,591            2892
General Dynamics1                                                1,290            3105
General Dynamics1                                                   68            2962
General Electric                                                   634            1400
General Electric1                                              85,992             1282
General Electric1                                                5,310            1556
General Electric1                                                8,489            1190
General Electric1                                              13,629             1619
General Electric Co./Lockheed Martin                             1,305             789
General Electric Company2                                      63,502             4849
Grumman Aerospace                                                  356            2436
Grumman Aerospace                                                  636            2602
Grumman Aerospace1                                               2,459            1497
Grumman Aerospace1                                               3,073            1467
Grumman Melbourne Systems1                                       5,724            1947
GTSI1                                                              353             611
Halliburton1                                                       838            2381
Halliburton1                                                       312            2315
Harris Corp.1                                                 145,795             1877
Harris Corp.1                                               1,767,172              182
Honeywell1                                                     46,263             1545
Hughes Aircraft                                                  3,168            1010
Hughes Aircraft                                                95,760             1261
Hughes Aircraft                                                  1,091            2399
Hughes Aircraft Company2                                           675            3884
Hughes Aircraft Company                                        11,866              531
Hughes Aircraft Company                                          6,261             531
Hughes Aircraft Company                                    17,784,492             2018
Hughes Aircraft Company                                        21,072              531
Hughes Aircraft SCG                                                785            1923
Hughes Missile                                                141,581             2372
Hughes Missile Systems Co.                                       2,345             729


Note: See footnotes at the end of the appendix.

                                                  26
              Contractor Name                          Amount of Debt    Age in Days
Hughes Training Inc                                        $ 175,275              1934
Humana Care Plus1                                                2,076            1147
ITT Barton                                                       5,070            1931
ITT Canon Electric2                                              2,093            5222
ITT Industries1                                             6,442,304             1226
Jacobs Engineering1                                              2,638             782
Johnson Controls World Service Inc.1                             1,087            1265
L-3 Communications Corp.1                                      20,604              433
Lear Siegler Management Services Corp.1                          2,389            2171
Lear Siegler Services1                                             862             238
Lear Siegler Services, Inc.1                                       924             182
Lear Siegler Services, Inc.1                                     2,605             214
Litton Systems1                                                73,054             2584
Lockheed Aircraft Service1                                         850            1035
Lockheed Martin1                                                   686             943
Lockheed Martin1                                                 4,169            1035
Lockheed Martin1                                                   686             913
Lockheed Martin1                                                   774             974
Lockheed Martin Astronautics1                                 224,046              981
Lockheed Martin Services1                                        1,450            1066
Lockheed Martin Services1                                        1,145            1308
Lockheed Martin Services1                                          666            1278
Lockheed Martin Services1                                        3,483            1004
Lockheed Martin Services1                                        1,504            1035
Lockheed Martin Services1                                        1,880            1127
Lockheed Martin Services1                                        2,589            1308
Lockheed Martin Services1                                        4,556            1096
Lockheed Martin Services1                                        1,461            1247
Lockheed Martin Services1                                          666             968
Lockheed Martin Services1                                        1,095            1157
Lockheed Martin Shared Services1                              198,492              267
Lockheed Martin Skunk Works1                                     5,170             555
Lockheed Martin Tactical Defense Systems1                      45,067              503
Lockheed Tech. Operations Corp1                                  1,029            1035
Lucent Technologies1                                             2,454            1105
Mantech Field Engineering Co1                                      800             913
Martin Marietta Services1                                        4,386            1790


Note: See footnotes at the end of the appendix.


                                                  27
              Contractor Name                          Amount of Debt    Age in Days
Martin Marietta Services1                                  $ 16,744               1790
Martin Marietta Technical Service1                                 948             575
Martin Marietta Technical Services1                              7,682             575
Martin Marietta Technical Services1                                452             575
Martin Marietta Technical Services1                                443             575
Martin Marietta Technical Services1                                442             575
Martin Marietta Technical Services1                                826             575
Martin Marietta Technical Services1                                497             575
Martin Marietta Technical Services1                                474             575
Martin Marietta Technical Services1                              1,887             575
Martin Marietta Technical Services1                            30,468              565
Martin Marietta Technical Services1                              1,733             575
Massachusetts Institute1                                       10,506              985
Massachusetts Institute1                                       13,438              985
Massachusetts Institute1                                       10,506              985
Massachusetts Institute Of Technology1                         20,307              985
Massachusetts Institute Of Technology1                         17,660              985
McDonnell Douglas                                                1,500            1176
McDonnell Douglas                                             204,233              950
McDonnell Douglas1                                             13,650             1356
McDonnell Douglas1                                               9,858            2617
McDonnell Douglas Aircraft                                       1,249             653
McDonnell Douglas Corp.                                        24,170              421
MCI Telecommunications1                                        11,780              903
MCI Telecommunications1                                          8,500             974
MCI Telecommunications1                                          3,604            1041
Northrup Grumman1                                                8,960             363
Northrup Grumman1                                             228,528              202
OHM Remediation Services Corp1                                     800            1127
OHM Remediation Services Corp1                                   3,851             832
Raytheon1                                                        3,070            2151
Raytheon1                                                       1,375            2199


Note: See footnotes at the end of the appendix.


                                                  28
              Contractor Name                               Amount of Debt    Age in Days
Raytheon                                                        $ 22,160               1969
Raytheon Company1                                                  102,100              974
Raytheon Data Systems                                                 8,255            1045
Raytheon Missile Systems1                                           64,865              561
Raytheon Service Company1                                             1,437            2737
Raytheon Services                                                       291            2962
Raytheon Services1                                                    1,414            1505
Raytheon Services1                                                  11,871             1673
Raytheon Services Nevada                                              1,389            1673
Raytheon Support Services                                               601             959
Raytheon Systems1                                                1,455,722              562
Rockwell Collins Inc.                                               12,050              570
Rockwell Collins Inc.                                                 8,746             616
Rockwell International1                                               2,389            2016
Rockwell International1                                               1,118            2593
Rockwell International1                                               2,057            1986
Rockwell International1                                               4,980            1724
Rockwell International1                                               9,991            2387
Rockwell International1                                             36,042             1545
Rockwell International Corp1                                        81,350             1514
Rockwell International Corp1                                            558            2563
Science Applications International Corp1                                757            1096
Science Applications International Corp1,2                         331,469             5430
Science Applications International Corp1                              1,244            1247
TRW Inc.                                                            15,670             1128
TRW Inc. 1                                                          17,064             2652
UNICOR Federal Prison Industries2                                   38,866             3862
UNICOR Federal Prison Industries                                        938             978
UNICOR Federal Prison Industries                                        950             377
UNICOR Federal Prison Industries                                    85,376              167
UNICOR Federal Prison Industries                                      1,317             204
United Technologies-Pratt & Whitney1                               102,948             2252
Westinghouse Electric1                                                1,379            2472
Westinghouse Electric1                                                2,288            2533
Westinghouse Electric1                                                   83            1804


1
    These debts were included in our memorandum to the Director, Defense Finance and Accounting
    Service, dated August 23, 2000.
2
    The 10-year period for offset has apparently lapsed on these debts.

                                                      29
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Finance and Accounting Service
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                      30
Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                       31
Defense Finance and Accounting Service
Comments




                   33
34
35
36
37
38
39
40
41
42
43
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General
for Auditing, DoD, prepared this report. Personnel of the Office of the Inspector
General, DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
Richard B. Bird
Cindi M. Miller
N. Dale Gray
Andrew D. Gum
Sarah A. Buelo
